                                          SOCIAL SECURITY
MEMORANDUM

Date:      October 2, 2003                                           Refer To:

To:         Horace Dickerson
            Regional Commissioner
             Dallas

From:       Assistant Inspector General
             for Audit

Subject:    Administrative Costs Claimed by the New Mexico Disability Determination Services
            (A-06-03-13016)


           The attached final report presents the results of our audit. Our objectives were to
           (1) determine whether costs claimed by New Mexico for Disability Determination
           Services (DDS) in Fiscal Years 1999 through 2001 were allowable and properly
           allocated and funds were properly drawn and (2) evaluate the State’s internal controls
           over the accounting and reporting of DDS administrative costs.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me at (410) 965-9700.



                                                          S
                                                          Steven L. Schaeffer

           Attachment

           cc:
           Lenore R. Carlson
           Jeff Hild
           Candace Skurnik
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



    ADMINISTRATIVE COSTS
 CLAIMED BY THE NEW MEXICO
  DISABILITY DETERMINATION
           SERVICES

  October 2003   A-06-03-13016




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                              Executive Summary
OBJECTIVES
Our objectives were to (1) determine whether costs claimed by New Mexico for
Disability Determination Services (DDS) in Fiscal Years (FY) 1999 through 2001 were
allowable and properly allocated and funds were properly drawn and (2) evaluate the
State’s internal controls over the accounting and reporting of DDS administrative costs.

BACKGROUND
Disability determinations under the Social Security Administration’s (SSA) Disability
Insurance and Supplemental Security Income programs are performed by a DDS in
each State according to Federal regulations. In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring adequate evidence is
secured to support its determinations. To assist in making proper disability
determinations, each DDS is authorized to purchase consultative medical examinations
to supplement evidence obtained from the claimants’ physicians or other treating
sources. SSA pays the DDS for all necessary expenditures.

RESULTS OF REVIEW
FY 1999 records were unauditable. As a result, we were unable to determine whether
disbursements charged for FY 1999 by the DDS were allowable and properly allocated.
However, our review of FY 2000 and 2001 data showed disbursements charged to SSA
for these 2 years were generally allowable and allocable. We did, however, find that the
State claimed $10,845 in unallowable indirect costs for FYs 2000 and 2001 and had
excess cash draws from the Treasury totaling $22,650.

With respect to internal controls, the State did not maintain adequate accounting
records for FY 1999, paid consultative examination fees in excess of Federal
regulations limiting such costs, did not comply with SSA’s procedures requiring that it
give ongoing consideration to the adequacy of CE fees, and did not make timely
adjustments to $545,924 in unliquidated obligations. Also, the Automated Standard
Application for Payments system reflected funding balances totaling $401,264 no longer
needed for program operations.

RECOMMENDATIONS

We recommend that SSA work with the State to improve its accounting procedures so
that adequate accounting records are maintained. Further, the State should return
funds to SSA for unallowable costs and cash draws that exceeded disbursements. We
also make a number of recommendations to improve the State’s internal controls.



Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                         i
SSA COMMENTS
SSA agreed with all of our recommendations. SSA’s comments are included in
Appendix C.

NEW MEXICO STATE AGENCY COMMENTS
The State agreed with all of the recommendations except Recommendation 1. The
State also disagreed with a specific statement in the report concerning medical
consultant contract costs. See Appendix D for the full text of the State’s comments.

OIG RESPONSE

Our comments are included on Page 10 of this report.




Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                     ii
                                                                        Table of Contents
                                                                                                                   Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

  Unallowable Costs and Cash Management..........................................................4

  Internal Controls ...................................................................................................5

  Automated Standard Application for Payments System .......................................7

CONCLUSIONS AND RECOMMENDATIONS.......................................................9

APPENDICES

APPENDIX A – Sampling Methodology and Results

APPENDIX B – Schedule of Total Costs Reported, Questioned, and Allowed

APPENDIX C – Social Security Administration Comments

APPENDIX D – New Mexico State Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments




Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)
                                                                     Acronyms
Act                  Social Security Act

ASAP                 Automated Standard Application for Payments

CE                   Consultative Examination

CMIA                 Cash Management Improvement Act

DDS                  Disability Determination Services

DI                   Disability Insurance

Form SSA-4513        State Agency Report of Obligations for SSA Disability Programs

FY                   Fiscal Year

NM DVR               New Mexico Division of Vocational Rehabilitation

OMB                  Office of Management and Budget

PV                   Payment Voucher

POMS                 Program Operations Manual System

SSA                  Social Security Administration

SSI                  Supplemental Security Income

Treasury             Department of the Treasury




Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)
                                                                           Introduction
OBJECTIVES
Our objectives were to (1) determine whether costs claimed by New Mexico for
Disability Determination Services (DDS) in Fiscal Years (FY) 1999 through 2001 were
allowable and properly allocated and funds were properly drawn and (2) evaluate the
State’s internal controls over the accounting and reporting of DDS administrative costs.

BACKGROUND
The Disability Insurance (DI) program was established in 1954 under Title II of the
Social Security Act (Act).1 The program provides a benefit to wage earners and their
families in the event the wage earner becomes disabled.2 The Supplemental Security
Income (SSI) program was created as a result of the Social Security Amendments of
1972. SSI (Title XVI of the Act), which was effective on January 1, 1974, provides a
nationally uniform program of income to financially needy individuals who are aged,
blind, or disabled.3

The Social Security Administration (SSA) is primarily responsible for implementing
policies governing the development of disability claims under the DI and SSI programs.
Disability determinations under both the DI and SSI programs are performed by a DDS
in each State according to Federal regulations.4 In carrying out its obligation, each DDS
is responsible for determining claimants’ disabilities and ensuring adequate evidence is
secured to support its determinations.5 To assist in making proper disability
determinations, each DDS is authorized to purchase such consultative medical
examinations as x-rays and laboratory tests to supplement evidence obtained from the
claimants’ physicians or other treating sources.6

SSA pays the DDS for all necessary expenditures. Each year, SSA approves a DDS
budget. Once approved, the DDS withdraws Federal funds through the Department of
the Treasury’s (Treasury) Automated Standard Application for Payments (ASAP)
system. Cash drawn from the Treasury to pay for program expenditures is to be drawn
according to intergovernmental agreements entered into by Treasury and the States

1
    Social Security Amendments of 1954 (Public Law 83-761).
2
    Id.
3
    Social Security Amendments of 1972 (Public Law 92-603).
4
    42 USC § 421 (2003); 20 CFR part 404, subpart Q, and part 416, subpart J (2002).
5
    Id.
6
    POMS DI 39545.001 B.4.



Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                         1
under the authority of the Cash Management Improvement Act (CMIA).7 OMB
establishes principles and standards for determining the allowability of costs for Federal
awards carried out through grants, cost reimbursement contracts, and other agreements
with State and local governments and Federally recognized Indian tribal governments.8
At the end of each fiscal quarter, each State agency submits to SSA a State Agency
Report of Obligations for SSA Disability Programs (Form SSA-4513) to account for
program disbursements, obligations and unliquidated obligations.

The New Mexico DDS is a component of the New Mexico State Division of Vocational
Rehabilitation (NM DVR), New Mexico State Department of Education. NM DVR
maintains the accounting of the DDS’ disbursements, completes and submits
Form SSA-4513 to SSA, and prepares the requests to transfer cash from Treasury to
the State Treasurer. The State’s indirect costs for the DDS are determined based on
rates negotiated and approved by the Department of Education. As of March 31, 2003,
NM DVR reported obligational authority, program disbursements, and unliquidated
obligations on Form SSA-4513 as follows.

                     REPORTING ITEM              FY 1999         FY 2000        FY 2001

              Obligational Authority             $9,058,536     $9,229,033      $9,633,534

              Disbursements

               Personnel                          4,775,790       4,725,613      5,005,813

               Medical                            2,372,704       2,498,292      2,269,780

               Indirect Costs                       890,340        881,740         918,035

               Other                              1,019,702       1,123,388      1,264,460

              Total Disbursements                $9,058,536     $9,229,033      $9,458,088

              Unliquidated Obligations                     0               0              0

              Obligational Authority Balance               0               0      $175,446


SCOPE AND METHODOLOGY
We reviewed the DDS’ administrative costs the State reported to SSA on
Form SSA-4513 for the period October 1, 1998 through September 30, 2001
(FYs 1999 through 2001). For FYs 2000 and 2001, we tested the reliability of the
State’s computerized data by comparing disbursements by category and in total with
amounts reported on Form SSA-4513. We then obtained sufficient evidence to
evaluate administrative costs in terms of their allowability under OMB Circular A-87 and
7
    Cash Management Improvement Act of 1990, P. L. No. 101-453 (amending 31 U.S.C. §§ 6501, 6503).
8
 Office of Management and Budget (OMB) Circular A-87, Cost Principles for State, Local and Indian
Tribal Governments.


Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                                   2
appropriateness, as defined by SSA's Program Operations Manual System (POMS).
For FY 1999, the State could not provide us computerized data for the DDS, and it did
not have a detailed accounting of the DDS disbursements in hard copy. Accordingly,
we could not select a statistical sample of transactions for review, and we did not
perform audit tests to determine the allowability and allocability of the DDS’
administrative costs for FY 1999.

We also:

•   Reviewed applicable Federal regulations, pertinent parts of the POMS, DI 39500,
    DDS Fiscal and Administrative Management, and other instructions pertaining to
    administrative costs incurred by the DDS and the requests for Federal funds covered
    by the CMIA agreement.

•   Evaluated and tested internal controls regarding accounting, financial reporting, and
    cash management activities.

•   Interviewed DDS and NM DVR personnel and SSA's staff at the Dallas Regional
    Office.

•   Examined the administrative expenditures (personnel, medical services, indirect and
    all other non-personnel costs) claimed by the DDS for the period October 1, 1999
    through September 30, 2001 (see Appendix A for our sampling methodology).

•   Compared the official State accounting records to the administrative costs reported
    by NM DVR to SSA on Form SSA-4513 for the period October 1, 1999 through
    September 30, 2001.

•   Compared the amount of SSA funds requested and received for program operations
    to the allowable expenditures reported on Form SSA-4513.

•   Reviewed work performed by certified public accountants as part of the State of New
    Mexico Department of Education Single Audit for FYs 1999 through 2001. (We did
    not rely on the work performed under the Single Audit because the scope of the
    Single Audit applicable to the DDS was limited.)

We conducted field work from August 2002 through April 2003 at the NM DVR in
Santa Fe, New Mexico; the DDS in Albuquerque, New Mexico; and SSA’s Regional
Office in Dallas, Texas. The entities audited were the New Mexico DDS and the Office
of Disability Determinations within the Office of the Deputy Commissioner for Disability
and Income Security Programs. We conducted this audit in accordance with generally
accepted government auditing standards.




Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                          3
                                                   Results of Review
FY 1999 records were unauditable. The State did not maintain adequate FY 1999
accounting records for us to determine whether costs claimed by the DDS were
allowable and properly allocated. However, for FYs 2000 and 2001, disbursements
charged to SSA by the State for the DDS were generally allowable and allocable—
except for unallowable indirect costs totaling $10,845 for FYs 2000 and 2001 and
excess cash draws from Treasury totaling $22,650. Other internal control deficiencies
were that the State did not comply with Federal regulations limiting costs of consultative
examination (CE) services, comply with SSA’s procedures requiring that it give ongoing
consideration to the adequacy of CE fees, and make timely adjustments to unliquidated
obligations. Also, the ASAP system reflected funding balances totaling $401,264 no
longer needed for program operations.

UNALLOWABLE COSTS AND CASH MANAGEMENT
We identified unallowable indirect costs for FYs 2000 and 2001; and we also found that
the State’s cash draws for the DDS exceeded its total disbursements for each of these
2 years. Additionally, since we were unable to audit disbursements charged to SSA for
FY 1999, we could not determine whether additional unallowable costs were charged to
SSA or whether the State’s cash draws in FY 1999 for the DDS were appropriate.

INDIRECT COSTS

The State’s indirect cost rates applicable to the DDS under the NM DVR are negotiated
with and established by the U.S. Department of Education on the State’s Indirect Cost
Rate Agreement. The applicable indirect cost rates were 22.87 percent from
July 1, 1998 through June 30, 2001 and 22.00 percent from July 1, 2001 through
June 30, 2004. The indirect cost base consisted of direct salaries and wages, including
applicable fringe benefits. For FYs 2000 and 2001, the State claimed $3,613 and
$7,232, respectively, of unallowable indirect costs because of errors made in calculating
its indirect cost amounts, as follows.

    •   For FYs 2000 and 2001, NM DVR should have excluded $22,650 in Medicaid
        cost reimbursements from its indirect cost base (see Cash Management). As a
        result, the indirect cost base was overstated.

    •   In FY 2001, NM DVR applied an incorrect indirect cost rate during the grant
        year.




Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                       4
                                 SUMMARY OF INDIRECT COSTS
                            CLAIMED, ALLOWABLE, AND UNALLOWABLE
                           FOR FYs 2000 AND 2001, AS OF MARCH 31, 2003
                        FY          Claimed         Allowable     Unallowable
                       2000                $881,740          $878,127              $3,613
                       2001                 918,035           910,803               7,232
                       Total             $1,799,775        $1,788,930             $10,845

CASH MANAGEMENT

As of March 31, 2003, the State’s cash draws for the DDS exceeded its total
disbursements by $15,800 for FY 2000 and $6,850 for FY 2001. This occurred because
the State did not subtract Medicaid reimbursement amounts from its personnel costs
when it requested funds from Treasury. The Medicaid reimbursement amounts
represented reimbursement for work on Medicaid cases performed by the DDS. The
provisions of an agreement between the New Mexico Human Services Department and
the New Mexico
                                SCHEDULE OF FUNDS RECEIVED, TOTAL DISBURSEMENTS,
Department of Education                 AND EXCESS DRAWS, FYs 2000 AND 2001
provided for the State
                                              Funds          Total          Excess
agency to be reimbursed           FY        Received     Disbursements      Draws
$50 for each Medicaid case
reviewed by the DDS.9 The        2000         $9,244,833     $9,229,033        $15,800
amount reimbursed to the         2001          9,464,938      9,458,088          6,850
DDS was to be subtracted         Total       $18,709,771    $18,687,121        $22,650
from personnel costs when
reporting costs to SSA.

INTERNAL CONTROLS

ACCOUNTING PROCESS AND RECORD RETENTION

States must adequately document accounting records.10 Further, SSA’s POMS
guidelines require that State agencies retain financial records and supporting
documentation until a Federal audit has been performed and all findings have been
resolved.11

For FY 1999 the NM DVR did not maintain adequate detailed accounting records to
support the DDS’ administrative costs. Consequently, we could not select a statistical
sample with which to audit costs for FY 1999 and verify or reconcile disbursements in

9
 Joint Powers Agreement Between New Mexico Human Services Department and New Mexico
Department of Education, Division of Vocational Rehabilitation, Disability Determination Services –
Number 95-24 (1995).
10
     OMB Circular A-87, Attachment A, section (C)(1)(j) (as amended August 29, 1997).
11
     POMS, DI 39509.005 C.1.b.


Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                                    5
NM DVR’s accounting records with amounts reported to SSA on Form SSA-4513. The
State did not maintain adequate records for FY 1999 because (1) its electronic data for
FY 1999 became corrupted when it attempted to convert data to a new accounting
system, and (2) the State did not maintain a hard copy of detailed transaction listings to
support amounts reported to SSA.

The lack of detailed accounting records to support FY 1999 disbursements represents a
serious management control deficiency since we were unable to determine whether the
costs for this year were appropriate. Further, for FYs 2000 and 2001—which the State
did maintain adequate accounting records for our review—disbursements by category in
the State accounting records equaled or exceeded amounts reported to SSA on
Form SSA-4513.

CONSULTATIVE EXAMINATION COSTS

For FYs 2000 and 2001, we selected statistical samples of 100 transactions for review
(200 transactions total). For each year, our sample included 72 CE transactions and
28 medical evidence of record transactions. The transactions were represented by
payment vouchers (PV) consisting of separately billed medical procedures bundled into
one voucher. For FY 2000, the 72 CE PVs included 353 medical procedures. For
FY 2001, the 72 CE PVs included 218 medical procedures.

We found the DDS did not follow Federal regulations that limit the amounts that can be
paid for CE costs to the highest rate paid by Federal or other agencies in the State12 for
the same or similar type of service.13 For FY 2000, we found CE medical procedures
paid in excess of Medicare rates in 51 (71 percent) of the 72 PVs selected for review.
We found the same condition in 43 (60 percent) of the 72 PVs for FY 2001.14 For the
51 PVs for FY 2000, the excess payments totaled $9,148, and, for the 43 PVs for
FY 2000, the excess payments totaled $4,789. Projected to the total population of CE
PVs, the dollar impact of the excess payments (point estimate) was $467,035 for
FY 2000 and $245,781 for FY 2001 (see Appendix A for our sampling methodology and
results).

We determined that the DDS had not developed a standardized fee schedule that
considered the Medicare payment limitations. Further, the DDS had not followed POMS
procedures that require ongoing consideration of the adequacy of CE rates. Instead,
the DDS paid for CE services based on individual agreements with specific medical
providers.


12
  During our audit period, no other New Mexico State agency had a fee schedule for the same or similar
type of service.
13
     20 CFR §§ 404.1624, 416.1024 (2002).
14
  We used the methodology performed by the DDS professional relation officers for FY 2002 as a basis
for correlating FY 2000 and 2001 medical procedures to Medicare codes. The medical procedures for
FY 2000 and 2001 were the same as those used for FY 2002.


Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                                       6
After our audit period, the DDS revised its CE rates to reflect fees that are in
accordance with Medicare rates. The rates were to be effective on October 1, 2002.
We did not review the revised rates to ensure they complied with Federal regulations.

UNLIQUIDATED OBLIGATIONS

The State did not make timely adjustments to unliquidated obligations reported to SSA
on Form SSA-4513. The DDS informed us it does not review unliquidated obligations
after the end of the Federal FY. POMS requires that States review the status of
unliquidated obligations at least once a month to cancel those that are no longer valid.15

For FYs 1999 and 2001, unliquidated obligations were reported for 18 months after the
close of the FY without being reviewed, and, for FY 2000, unliquidated obligations were
reported for 15 months after the close of the FY without being reviewed. The following
table shows unliquidated obligations reported at the end of the FY and corresponding
amounts not used for program operations.

            UNLIQUIDATED OBLIGATIONS REPORTED ON FORM SSA-4513 AND AMOUNTS
              NOT USED FOR PROGRAM OPERATIONS FOR FYs 1999, 2000, AND 2001
                                                 FY 1999      FY 2000      FY 2001       Total
      Reported disbursements at end of FY        $8,445,234   $8,832,438   $8,905,232 $26,182,904
      Reported unliquidated obligations at end
                                                   847,847      532,528      728,302    2,108,677
      of FY
      Total obligations reported at end of FY    $9,293,081   $9,364,966   $9,633,534 $28,291,581
      Final reported disbursements at end of
                                                 $9,058,536   $9,229,033   $9,458,088 $27,745,657
      grant period
      Unliquidated obligations not used for
                                                  $234,545     $135,933     $175,446    $545,924
      program operations
      Percentage of total unliquidated
                                                    27.66%       25.53%       24.09%      25.89%
      obligations at FY end not used


Thus, the State unnecessarily obligated $234,545, $135,933 and $175,446 for
FYs 1999, 2000, and 2001, respectively, because it did not perform monthly reviews of
unliquidated obligations after the end of the Federal FY to cancel those no longer
needed.

AUTOMATED STANDARD APPLICATION FOR PAYMENTS SYSTEM
As of April 4, 2003, ASAP reflected funding balances totaling $401,264 that were no
longer needed for DDS operations. The ASAP system is used to authorize the amount
of funds that can be requested as cash draws from Treasury. Amounts authorized for
cash draws are based on the total obligation authority for DDS operations. When the


15
     POMS, DI 39506.203(A).


Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                                  7
total obligation authority is reduced, the ASAP authority should be reduced accordingly.
This reduces the risk the State could inadvertently request funds in excess of its
obligational authority. Funds requested from Treasury are restricted solely for program
use, and any unused money is to be returned to Treasury.16 As of April 4, 2003, ASAP
reflected funding balances for FYs 1999 through 2001 as follows.

                           Cumulative Authorizations, Draws, and Balance as of
                                              April 4, 2003
                                    Cumulative       Cumulative        Available
                          FY       Authorizations      Draws           Balances
                        1999        $9,152,921.47    $9,058,535.47      $94,386.00
                         2000       $9,383,115.00    $9,244,833.05      138,281.95
                         2001       $9,633,534.00    $9,464,938.00      168,596.00
                        Total                                          $401,263.95


As of March 31, 2003, the State had filed all of the final Forms SSA-4513 for FYs 1999
through 2001 showing the total obligations incurred by the State for its operations.
Therefore, all obligations were disbursed and liquidated, and there was no need for the
excess ASAP funding authority.




16
     42 U.S.C. § 421 (f) (2003).


Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                        8
                                                  Conclusions and
                                                 Recommendations
We were unable to audit disbursements charged for FY 1999 because the State did not
maintain adequate accounting records for this year. However, for FYs 2000 and 2001,
disbursements charged to SSA were generally allowable and allocable—except for
indirect costs totaling $10,845 for FYs 2000 and 2001 and excess cash draws totaling
$22,650. Therefore, improvements are needed in maintaining detailed accounting
records, limiting costs of CE services, giving ongoing consideration to the adequacy of
CE fees, and making timely adjustments to unliquidated obligations.

We recommend that SSA instruct NM DVR and the DDS to:

1. Maintain adequate accounting records to support disbursements reported on Form
   SSA 4513 and retain these records until a Federal audit has been performed and all
   findings have been resolved.

2. Refund $3,613 for FY 2000 and $7,232 for FY 2001 for unallowable indirect costs
   claimed.

3. Return $15,800 for FY 2000 and $6,850 for FY 2001 for cash draws that exceeded
   disbursements.

4. Use standardized CE fee schedules that consider the limits set by Federal
   regulations and monitor the adequacy of CE fees, as required by POMS.

5. Review unliquidated obligations at least once a month to cancel those no longer
   valid. These reviews should be conducted until all unliquidated obligations are
   resolved and the grant year is closed.

We also recommend that SSA:

6. Reduce the ASAP funding authority by $94,386 for FY 1999, $138,282 for FY 2000,
   and $168,596 for FY 2001.

AGENCY COMMENTS
SSA agreed with all of our recommendations. Specifically, SSA (1) believes records will
be available under the new accounting system implemented in July 2001; (2) reduced
allowable indirect costs for FY 2001 and will verify that FY 2000 unallowable costs have
been returned; (3) will verify that cash draws in ASAP have been corrected to return the
overdrawn amounts; (4) verified that the DDS is paying according to its new fee
schedule using Medicare fees as a guide; (5) reduced the FY 2002 obligations to cancel



Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                     9
unliquidated obligations; and (6) issued budget approvals to reduce funding authority to
the reported obligations. See Appendix C for the full text of SSA’s comments.

NEW MEXICO STATE AGENCY COMMENTS
The State agreed with all of the recommendations except Recommendation 1. The
State also disagreed with a specific statement in the report concerning medical
consultant contract costs. The State claimed it did have and does have hard copy
records for Federal FY 1999 that it believed to be auditable. It added that hard copy
accounting records, except for the current State FY and the preceding State FY, were
archived off premises at the State of New Mexico Record Center because of storage
limitations. The State also did not agree with the statement in the report that the NM
DVR incorrectly included $35,235 in medical consultant contract costs in its indirect cost
base. See Appendix D for the full text of the State’s comments.

OIG RESPONSE

During our audit, we asked for a detailed accounting of costs by cost category to
support expenses reported to SSA as DDS expenses. The State did not provide the
general ledger or any detailed ledgers to support DDS expenditures for FY 1999.
Further, we were told the FY 1999 computer data were lost when the NM DVR
converted to a new accounting system and the NM DVR did not maintain a hard copy of
its general ledger to support expense amounts reported to SSA.

In a telephone discussion with State officials on September 24, 2003, we clarified the
State did not have a hard copy general ledger that would illustrate costs by category, list
all transactions that comprise those categories, and be reconcilable to the amounts
reported to SSA on the SSA-4513 reports. In its response, the State’s reference to hard
copy accounting records referred to voucher documents available for FY 1999
disbursements. While these archived documents may have been available for review,
the lack of a general ledger would not allow us to readily identify the population of
transactions needed for statistical sampling. Consequently, we could not audit FY 1999
costs without having the State reconstruct an accounting of FY 1999 costs from all of its
voucher documents. During our conversation, the State assured us that its new
accounting system would provide the level of detail needed to support costs reported to
SSA and that a back-up system had been implemented to guard against the possibility
that accounting data would be lost.

With respect to the statement that the NM DVR incorrectly included $35,236 in medical
consultant contract costs in its indirect cost base, the State’s final SSA-4513 report to
SSA incorrectly included $35,236 in medical consultant costs in its indirect cost base.
However, the State’s summary schedule that supported the SSA-4513 did exclude the
amount from the base. Accordingly, we agreed to delete the statement from the final
report because it was not a cause for the finding and it had no impact on the amounts
questioned.



Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                       10
                                     Appendices




Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)
                                                                     Appendix A

Sampling Methodology and Results
Our sampling methodology encompassed four general areas of administrative costs:
(1) personnel, (2) medical, (3) medical consultants, and (4) all other non-personnel
costs. The New Mexico Division of Vocational Rehabilitation could not provide detailed
accounting data to support information reported on Form SSA-4513 for Fiscal Year
(FY) 1999. Without the detailed information, we could not determine the sample
population for FY 1999. Thus, the following sampling methodology will only address
FYs 2000 and 2001.

PERSONNEL COSTS

We randomly sampled 30 employees from 1 randomly selected pay period for FYs 2000
and 2001. We tested the payroll records to ensure individuals were paid correctly and
payroll was adequately documented.

MEDICAL COSTS

We selected a statistical sample of 100 transactions for FY 2000 and another sample of
100 transactions for FY 2001. For each year, our sample included 72 consultative
examination (CE) transactions and 28 medical evidence of record transactions. The
transactions were represented by payment vouchers (PV) consisting of separately billed
medical procedures bundled into one voucher. For FY 2000, the 72 CE PVs included
353 medical procedures. For FY 2001, the 72 CE PVs included 218 medical
procedures.

                            Sample Results and Projections
                                      FY 2000
   Population size                                                        3,676
   Sample size                                                               72
                               Variable Projection
   Sample Results – Dollars Paid in Excess of Medicare Rates             $9,148
   Projection point estimate                                           $467,035
   Projection lower limit                                              $301,860
   Projection upper limit                                              $632,210
      Note: Projections were calculated at the 90-percent confidence level.




Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                  A-1
                            Sample Results and Projections
                                      FY 2001
    Population size                                                        3,695
    Sample size                                                               72
                                Variable Projection
    Sample Results – Dollars Paid in Excess of Medicare Rates             $4,789
    Projection point estimate                                           $245,781
    Projection lower limit                                              $157,107
    Projection upper limit                                              $334,454
       Note: Projections were calculated at the 90-percent confidence level.

MEDICAL CONSULTANTS

For FYs 2000 and 2001, we randomly selected 1 monthly pay period for each medical
consultant. We reviewed 17 Medical Consultants for FY 2000 and 14 for FY 2001.

ALL OTHER NON-PERSONNEL COSTS

We selected 200 items (100 items for each FY). We stratified the all other non-
personnel costs into eight cost categories.

   1.   Applicant Travel
   2.   Staff Travel
   3.   Communications
   4.   Building
   5.   Equipment
   6.   Contracting Out
   7.   Miscellaneous
   8.   Occupancy costs

We also selected a judgmental sample of four occupancy cost expenditures for each
FY.




Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                  A-2
                                                                      Appendix B

Schedule of Total Costs Reported, Questioned,
and Allowed
               NEW MEXICO DISABILITY DETERMINATION SERVICES


                  FISCAL YEAR (FY) 2000 AND FY 2001 COMBINED
        COSTS             REPORTED        QUESTIONED        ALLOWED

  Personnel                      $9,731,426                     $0       $9,731,426
  Medical                         4,768,072                      0        4,768,072
  Indirect                        1,799,775               (10,845)        1,788,930
  All Other                       2,387,848                      0        2,387,848
  TOTAL                         $18,687,121              ($10,845)      $18,676,276

                                     FY 2001
        COSTS               REPORTED       QUESTIONED                 ALLOWED

  Personnel                      $5,005,813                      $0      $5,005,813
  Medical                         2,269,780                       0       2,269,780
  Indirect                          918,035                 (7,232)         910,803
  All Other                       1,264,460                       0       1,264,460
  TOTAL                          $9,458,088                ($7,232)      $9,450,856

                                     FY 2000
        COSTS               REPORTED       QUESTIONED                 ALLOWED

  Personnel                      $4,725,613                      $0      $4,725,613
  Medical                         2,498,292                       0       2,498,292
  Indirect                          881,740                 (3,613)         878,127
  All Other                       1,123,388                       0       1,123,388
  TOTAL                          $9,229,033                ($3,613)      $9,225,420




Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)
                                                                     Appendix C

Social Security Administration Comments




Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)
                                           SOCIAL SECURITY

MEMORANDUM

Date:      August 27, 2003

To:        Steven L. Schaeffer
           Assistant Inspector General
           for Audit

From:      Horace L. Dickerson, Jr.
           Regional Commissioner
           Dallas

Subject:   Dallas Reply: Administrative Costs Claimed by the New Mexico Disability Determination
           Services (A-06-03-13016)



           Thank you for the opportunity to review and provide comments on the New Mexico Disability
           Determination Services (DDS) draft audit report. We appreciate the professionalism and
           courtesy of the OIG auditors and their efforts to keep us informed during the audit process. The
           following is a summary of the audit recommendations and our comments on each of them:

           1. Maintain adequate accounting records to support disbursements reported on Form SSA-4513
           and retain these records until a Federal audit has been performed and all findings have been
           resolved.

           We agree with this recommendation. The problems in reconciling records were primarily due to
           changes in accounting systems during the period covered by the audit. The New Mexico
           Division of Vocational Rehabilitation (DVR) changed from VAX to AIMS and to the current
           MIP system which was implemented in July 2001. Records should be available under the new
           accounting system. Based on discussion with parent agency leadership and the DDS, we believe
           this issue has been resolved.

           2. Refund $3,613 for FY 2000 and $7,232 for FY 2001 for unallowable indirect cost claimed.

           We agree with this recommendation. FY 2001 has been corrected and allowable indirect costs
           reduced. We will verify that FY 2000 unallowable cost has also been returned. DVR should
           have excluded Medicaid reimbursement from the indirect cost base. As a result the base was
           overstated. Since DVR no longer processes Medicaid claims and receives no Medicaid
           reimbursement, this will no longer be an issue.




           Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                           C-1
3. Return $15,800 for FY 2000 and $6,850 for FY 2001 for cash draws that exceed
disbursements.

We agree. We will verify that cash draws in Automated Standard Application for Payments
(ASAP) have been corrected to return the overdrawn amounts.

4. Use standardized CE fee schedules that consider the limits set by Federal regulations and
monitor the adequacy of CE fees, as required by POMS.

We agree that during the audit period the DDS was not using a standardized fee schedule.
However, beginning October 2002, the DDS established a new fee schedule using the Medicare
fee schedule as a guide. In May 2003, the Regional Office conducted a CE oversight visit.
Samples of CEs were reviewed and we verified that the DDS is paying in accordance with the
new fee schedule.

5. Review unliquidated obligations at least once a month to cancel those no longer valid.

We agree with the recommendation. The DDS and DVR have implemented new procedures to
cancel obligations and reduce the amount claimed on the quarterly report. FY 2002 obligations
reported on the SSA-4513 were reduced between the 12/02 and 2/03 quarter to cancel
unliquidated obligations.

6. SSA should reduce ASAP funding authority for FY 1999, FY 2000, and FY 2001.

We agree with the recommendation. Budget approvals were issued to reduce funding authority
to the reported obligations. However, we understand that there was a lag between issuance of the
approvals and input into ASAP by the Office of Finance. FY 1999 has now been input and we
are working through DFDO to verify Office of Finance input of FY 2000 and FY 2001 into
ASAP and to coordinate procedures.

If members of your staff have any questions, please have them call Carol Marshall or Fred
Albright at 214-767-4468 in Management and Operations Support, Center for Disability.




Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                             C-2
                                                                 Appendix D

New Mexico State Agency Comments




Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)
September 11, 2003



Steven L. Schaeffer
Assistant Inspector General for Audit
Social Security Administration
6401 Security Boulevard
4-L-1 Operations Building
Baltimore, Maryland 21235

Re: Administrative Costs Claimed by the New Mexico Disability Determination Services
(A-06-03-13016)

Dear Mr. Schaeffer:

We appreciate this opportunity to review and respond to the Disability Determination
Services (DDS) draft audit report for fiscal years 1999, 2000 and 2001. Below is a listing
of the audit recommendations listed in this draft audit report and our comments on each
of them:

1. Maintain adequate accounting records to support disbursements reported on Form
SSA-4513 and retain these records until a Federal audit has been performed and all
findings have been resolved.

This finding and related references to it at the top of page three and the top of page four
of this draft report are confusing. Specifically "it (the State) did not have a detailed
accounting of the DDS disbursements in hard copy (for federal fiscal year 1999)"
parenthetical information added for clarity and "FY 1999 records were unauditable".
While we agree that computerized data for this time period became corrupted in
conversion to a new accounting system and was therefore not available, we did and do
have hard copy records for this period which we believe to be auditable.

Hard copy accounting records, except for the current state fiscal year and the preceding
state fiscal year, are archived off premises at the State of New Mexico Record Center due
to storage limitations. Archived records can be obtained but are not immediately
available. We suspect that this is what caused the misunderstanding as to the availability
of auditable records and we do not concur with this finding.




Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                      D-1
Steven L. Schaeffer
Page 2
September 11, 2003



2. We will reduce the current year’s drawdowns by $3,613 for FY 2000 and $7,232 for
FY 2001 for the unallowable indirect costs claimed.

We agree with this recommendation. FY 2001 has been corrected and allowable indirect
costs reduced. We will return the FY 2000 unallowable cost and we agree that we should
have excluded Medicaid reimbursement from the indirect cost base. As a result, the base
was overstated. Since we no longer process Medicaid claims and receive no Medicaid
reimbursement, this will no longer be an issue.


3. Return $15,800 for FY 2000 and $6,850 for FY 2001 for cash draws that exceed
disbursements.

We agree. We will correct/adjust the cash draws in Automated Standard Application for
Payments (ASAP) for years 2000 and 2001 by reducing the current draws.


4. Use standardized consultative examination (CE) fee schedules that consider the limits
set by Federal regulations and monitor the adequacy of CE fees, as required by the
Program Operation Manual System (POMS).

We agree that during the audit period a standardized fee schedule was not used.
However, beginning October 2002, the DDS established a new fee schedule using the
Medicare fee schedule as a guide. In May 2003, the Regional Office conducted a CE
oversight visit. Samples of CE’s were reviewed by Regional Office staff and they
verified that we are paying in accordance with the new fee schedule.


5. Review unliquidated obligations at least once a month to cancel those no longer valid.

We agree with the recommendation. We have implemented new procedures to cancel
obligations and reduce the amount claimed on the quarterly report. FY 2002 obligations
reported on the SSA-4513 were reduced between the 12/02 and 2/03 quarter to cancel
unliquidated obligations.


6. Social Security Administration (SSA) should reduce ASAP funding authority for FY
1999, FY 2000, and FY 2001.

We agree with the recommendation. This finding needs to be addressed by SSA.



Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                   D-2
Steven L. Schaeffer
Page 3
September 11, 2003



We do not concur with the statement on page four of the draft audit report, the second
bullet under indirect costs namely:

        •    In FY 2001, the New Mexico Division of Vocational Rehabilitation (NM
             DVR) incorrectly included $35,236 of medical consultant contract costs in its
             indirect cost base.

Communications with the individuals who performed this audit indicated that this
statement would be deleted prior to the final issuance of this report because it cannot be
supported. We note that neither this statement nor any resulting effects are reflected in
the six findings listed above.

Sincerely,



Terry Brigance
Director

TB/DJ

Xc:     Daniel Johnson, DVR Financial Manager
        Charles E. White, DDS Administrator
        Roy Burrola, DDS Financial Manager
        Sherry L. Garcia, Deputy Director, DVR Admin. Services
        Dori Lujan, Supervisor, DVR Financial Specialist Unit




Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)                     D-3
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Rona Rustigian, Director, (617) 565-1819

   Paul Davila, Deputy Director, (214) 767-6317

Staff Acknowledgments

In addition to those named above:

    Billy W. Mize, Auditor-in-Charge

    Joshua M. Campos, Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-06-03-13016.




Administrative Costs Claimed by the New Mexico DDS (A-06-03-13016)
                        DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General

                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
